    Office of Inspector General
         Audit Report


  FRA’S REQUIREMENTS FOR HIGH SPEED RAIL
STAKEHOLDER AGREEMENTS MITIGATED RISK, BUT
     DELAYED SOME PROJECTS’ BENEFITS
           Federal Railroad Administration


            Report Number: CR-2013-007
           Date Issued: November 1, 2012
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FRA’s Requirements for High Speed                                            Date:    November 1, 2012
           Rail Stakeholder Agreements Mitigated Risk, but
           Delayed Some Projects’ Benefits
           Federal Railroad Administration
           Report Number: CR-2013-007

  From:    Mitchell Behm                                                                    Reply to
                                                                                            Attn. of:    JA-50
           Assistant Inspector General for Rail, Maritime,
           and Economic Analysis

    To:    Federal Railroad Administrator

           The Passenger Rail Investment and Improvement Act of 2008 1 (PRIIA) directed
           the Federal Railroad Administration (FRA) to establish a grant program to fund
           various types of intercity passenger rail improvements. Four months after
           PRIIA’s enactment, the American Recovery and Reinvestment Act of 2009 2
           (ARRA) appropriated $8 billion to FRA to develop and implement a high-speed
           intercity passenger rail (HSIPR) grant program. FRA awarded the majority of the
           $8 billion in ARRA funds to two types of HSIPR projects: short-term, “ready-to-
           go” projects—almost ready for construction—and long-term, corridor
           development projects. ARRA established aggressive timelines for FRA’s
           obligations and grantees’ expenditures for both types of projects.

           Pursuant to PRIIA and ARRA, FRA issued interim guidance (Guidance) that
           details HSIPR project application requirements and communicates deadlines by
           which FRA must obligate and disburse ARRA funds to HSIPR projects. Based on
           PRIIA’s requirements, the Guidance specifies terms upon which stakeholders 3
           must reach written agreement before FRA will disburse funds. These terms are
           related to three primary areas 4—service outcomes, maintenance, and construction.

           1
               P.L. No. 110-432, Div. B.
           2
               P.L. No. 111-5.
           3
               State grantees must reach agreement with other project stakeholders, including passenger rail operators (usually
               Amtrak) and the transit and commuter rail authorities that own or control existing tracks on which new or improved
               passenger rail service will operate.
           4
               Additional terms that stakeholders must agree upon cover project property ownership; compensation for use of
               freight tracks by passenger rail service providers; protection of collective bargaining rights for railroad employees;
               and State grantee compliance with statutory liability requirements.
                                                                                                                2



We are reviewing FRA’s overall administration of the HSIPR Program. 5 In this
audit, we assessed (1) FRA’s development of stakeholder agreement requirements
for long-term, corridor projects, and (2) the effects that the requirements’
development had on short-term, ready-to-go projects.

To accomplish our objectives, we reviewed PRIIA and ARRA’s HSIPR
requirements and examined FRA’s Guidance and requirements for the Program.
We reviewed summary obligation data for 61 long-term and short-term projects
that required various agreements and validated that summary data against FRA-
approved agreements and other documentation for these projects. We met with
FRA officials, State grantees, Amtrak officials, and freight rail stakeholders. We
conducted this review in accordance with generally accepted Government auditing
standards. A more detailed discussion of our scope and methodology is provided
in Exhibit A.

RESULTS IN BRIEF

FRA took an important step to mitigate risk by requiring Stakeholder service
outcome agreements (SOA) for long-term HSIPR projects before fund obligation.
However, the lack of clear FRA guidance on structuring the agreements has
required the Agency to be more involved in negotiating them, resulting in a more
challenging and time consuming process. Still, most long-term project grantees
lack the maintenance and construction agreements required to receive their funds
and start work, but FRA obligated funds to them nonetheless. If these projects’
agreements continue to be delayed, funds obligated to them will sit idle instead of
being made available for projects that have completed agreements and have a
greater likelihood of success, which threatens the long-term goals of the HSIPR
program.

FRA’s focus on assisting in negotiations for long-term projects delayed the
economic recovery benefits that short-term projects were intended to stimulate.
Despite its own deadline of September 30, 2010 to complete short-term project
obligations, FRA did not actually begin these obligations until September 2010,
and by the end of March 2011, had completed few of its planned obligations. This
delay in obligations in turn deferred the short-term projects’ economic benefits. In
addition, FRA’s concentration on long-term projects also delayed its determination
of agreement requirements for short-term projects. According to FRA officials,
when FRA finally began focusing more on short-term projects, it established
policy on these stakeholder agreement requirements on a project-by-project basis

5
    OIG is also reviewing FRA’s administration of major grant programs. We recently issued a report on the revenue
    and ridership forecasting practices used by HSIPR applicants, FRA Needs to Expand Its Guidance on High Speed
    Rail Project Viability Assessments CR-2012-083. A copy of this report is available at www.oig.dot.gov.
                                                                                                                        3


rather than through published guidance. Short-term grantees reported that without
written guidance, they had difficulties understanding FRA’s expectations
regarding the terms for their project stakeholder agreements.

We are making recommendations to FRA on the development of policy and
guidance to ensure that HSIPR projects achieve their intended benefits.

BACKGROUND

ARRA requires FRA to obligate all ARRA funds awarded to HSIPR projects by
September 30, 2012, and disburse them by September 30, 2017. 6 This timeline
was established to ensure that the funds “jump start” the widespread improvement
of high-speed intercity passenger rail service in the United States. ARRA also
compressed FRA’s time to develop HSIPR Program guidance from the 2 years
allowed by PRIIA to 120 days from ARRA’s enactment. Accordingly, FRA issued
the Guidance in June 2009.

In January 2010, FRA awarded ARRA-funded grants for 38 short-term and
23 long-term projects. 7 Thirteen of these 23 long-term projects required SOAs.
According to the Guidance, ARRA funding was intended to stimulate both
economic recovery and provide passenger rail infrastructure investment. Grants to
short-term projects were primarily meant to stimulate recovery. These grantees
can immediately begin final design and construction because they have completed
planning, and environmental and preliminary engineering activities. ARRA
funding for long-term projects is intended to develop new high-speed rail corridor
and passenger rail services or implement substantial upgrades to existing corridor
services. These projects address ARRA’s long-term reinvestment goals with long-
term funding commitments for passenger rail infrastructure.

The Guidance does not require any stakeholder agreements to be in place prior to
fund obligation. However, it does require grantees to reach agreement with
stakeholders, prior to fund disbursement, on three types of terms: 8

    • Service outcome related terms (Service Outcome Agreement (SOA)):
      These terms define the intended benefits of new or improved passenger rail
      service and demonstrate the rail owning entity’s commitment to the



6
    FRA completed obligations by September 2011, but had disbursed little more than seven percent of these funds by
    June 2012.
7
    FRA obligated funds to 28 long-term projects, but 5 were eventually de-obligated.
8
    A single agreement or several may address these terms, but for ease of discussion in this report, we refer to each term
    as if it were addressed in a single agreement.
                                                                                                                   4


       achievement of those benefits. Specifically, they address passenger rail service
       frequency, schedule and trip time, and maximum delay minutes; 9

     • Maintenance related terms (Maintenance Agreement): These terms address
       the financial and operational responsibilities for maintenance, and must
       indicate that project property will be maintained, for a period of at least
       20 years, in a state of good repair at the level of utility that exists when project
       improvements are placed in service; and

     • Construction related terms (Construction Agreement): These terms outline
       stakeholders’ responsibilities with respect to how construction of assets will be
       managed and who will perform the construction.

The Guidance states that all obligations to short-term projects will occur no later
than September 30, 2010 (2 years before the ARRA mandated deadline), and that
these projects will be completed within 2 years of obligation. The Guidance also
states that all obligations to long-term corridor projects will be completed no later
than September 30, 2011 (1 year before the ARRA mandated deadline), and that
these projects must be completed by September 30, 2017—the date after which
funds will no longer be available. 10

FRA REQUIRED SOAs FOR LONG-TERM PROJECTS PRIOR TO
OBLIGATION, BUT OTHER REQUIRED AGREEMENTS ARE NOT
COMPLETE

FRA took an important step to mitigate risk by requiring SOAs for long-term
HSIPR projects before fund obligation, but its lack of clear guidance on agreement
structure has required the Agency to be more involved in agreement negotiations.
However, the majority of grantees that FRA has obligated funds to have not yet
completed all required agreements with their project stakeholders, and
consequently, program success could be in jeopardy.

FRA Mitigated Risk by Requiring SOAs but Provided Unclear
Guidance to Grantees on Agreement Structure

After it completed its ARRA grant awards, FRA decided to require grantees of
long-term HSIPR projects located on infrastructure owned by private railroad
companies to have SOAs in place prior to fund obligation. FRA officials informed


9
     Delay minutes refer to the average amount of time that a passenger train is delayed on a specified route and the
     identified cause of that delay for purposes of determining responsibility.
10
     31 U.S.C. § 1552.
                                                                                                                       5


us that they had identified the SOA 11 as an important document for project risk
mitigation because it ensures that all stakeholders have agreed on their roles in the
project’s expected passenger rail service benefits. Furthermore, ARRA’s short
timelines made it important for stakeholders to reach agreement on these terms as
quickly as possible.

Project stakeholders, however, found the SOA negotiation process challenging, in
part because FRA’s Guidance provides little detail on how to structure stakeholder
agreements. 12 Specifically, the Guidance states that the “form and structure” of the
stakeholder agreements are at the grantees’ “discretion.” Due to the Guidance’s
limited detail, project stakeholders had no way of knowing what FRA deemed
acceptable. Freight company officials we interviewed felt that in the absence of
authoritative guidance from FRA, Amtrak (the passenger service operator) took
control of the negotiations. Consequently, the companies had to consent to
agreement terms that satisfied Amtrak.

The freight company officials also informed us that they found themselves
engaged in a time consuming process of trial and error in which they drafted
multiple versions of agreements which Amtrak repeatedly rejected. When it
became aware of the problems with long-term project agreement negotiations,
FRA intensified its assistance to these grantees. From the freights and State
grantees’ perspectives, however, the terms that FRA required the agreements to
include were clarified only through lengthy back-and-forth reviews with the
Agency. Officials from the freight railroads informed us that, due to the extensive
negotiations required to produce agreements that were satisfactory to FRA, they
had to expand their legal and audit staff to meet the increased workloads.
Stakeholder representatives informed us that negotiations ran smoothly only when
all parties came together with high level officials from FRA.

As of September 2011, after it had worked with project stakeholders, FRA
obligated $3.2 billion in ARRA funds for the 13 long-term corridor projects that
required service outcome agreements. The stakeholders on 10 of these 13 projects
had reached agreement on service outcome related terms prior to obligation. The
three remaining projects were all associated with an existing passenger service for
which the stakeholders had already reached agreement on service outcomes and
needed only to amend the existing agreement for new services. 13
11
     Rather than update the Guidance in writing, FRA communicated the new requirements to grantees informally during
     agreement negotiation sessions.
12
     Complicating matters was FRA’s May 2010 guidance, High-Speed Intercity Passenger Rail Program – Stakeholder
     Agreements, in which FRA attempted to specify “critical provisions to be included in these agreements.” FRA
     rescinded this guidance, however, soon after it was issued in response to significant outcry from freight railroads.
13
     FRA informed us that for multiple projects within a single corridor, it considers post-obligation amendments to
     service outcome related agreements acceptable. However, since those terms are not finalized and the new service
     outcome terms with the transit authority were still being negotiated, the post-obligation amendments did not mitigate
     risks as FRA intended.
                                                                                                             6



FRA’s Decision to Obligate Funds to Projects Without All Required
Agreements Could Negatively Impact Program Success

FRA is working with State grantees and other project stakeholders to complete
maintenance and construction agreements, which PRIIA requires for fund
disbursement. FRA obligated all of the ARRA funds before September 30, 2011—
one year ahead of the ARRA mandated deadline—to projects without all of these
required agreements in place. Once FRA obligated the funds, grant recipients
began signing contracts and starting work based on the expectation that they
would receive those funds even though their required agreements were not
complete. Consequently, FRA cannot readily shift the obligated funds away from
delayed projects to other projects with greater likelihood of success without
severely impacting the grantees that lose the funds.

The deadline for the expenditure of ARRA funds and completion of construction
is September 30, 2017. While this is over 5 years away, the longer outstanding
agreements remain incomplete, the shorter the time grantees will have to complete
the major construction associated with their projects. Even if a grantee has already
met agreement requirements, the short timeframe for project construction alone is
challenging. For example, California has all required project stakeholder
agreements in place. In a report, however, external peer reviewers expressed
doubts that California could meet ARRA’s 2017 deadline in order to receive
reimbursements. 14

If the funds that FRA has committed to projects that sit idle because the grantees
do not complete the required stakeholder agreements cannot be readily shifted to
other projects, then the long-term goals of the HSIPR program may not be
achieved.

FRA’S DEVELOPMENT OF LONG-TERM PROJECT AGREEMENT
REQUIREMENTS DELAYED SHORT-TERM PROJECT BENEFITS

FRA’s focus on long-term project agreement negotiations delayed short-term
project benefits. From September 2010 through March 2011, the Agency
completed few short-term project obligations—despite its own deadline of
September 30, 2010, for these obligations—as it helped long-term project grantees
negotiate agreements with their project stakeholders. These delays in turn delayed
the economic benefits that the short-term projects were expected to stimulate. The
concentration on long-term projects also meant that FRA delayed its determination
of agreement requirements for short-term projects. In the absence of written
14
     California High-Speed Rail Peer Review Group Report to California State Legislature, January 3, 2012.
                                                                                                                    7


guidance, short-term project grantees have had difficulties in their
communications with FRA regarding appropriate terms for their project
stakeholder agreements.

Due to Its Focus on Long-Term Projects, FRA Delayed Short-Term
Projects’ Obligations

FRA focused on long-term projects because agreement negotiations were
challenging and amounts awarded to these projects represented the majority of
ARRA funds for the HSIPR program. Due to this focus on long-term corridor
projects, however, FRA delayed both obligating funds to and developing
agreement requirements for short-term projects. 15 As depicted in Figure 1, as it
focused on long-term projects from September 2010 through March 2011, FRA
obligated few short-term projects. After it completed the majority of its work with
long-term stakeholders in March 2011, FRA began to focus on short-term projects.

Figure 1. Timeline of FRA’s Obligations of HSIPR Projects

                                         100%   Total long-term             23
                                                projects:
                                         90%
                                                Total short-term            38
                                         80%    projects:
      Percentage of Projects Obligated




                                         70%

                                         60%

                                         50%

                                         40%

                                         30%

                                         20%

                                         10%

                                          0%




                                                          Short-term projects    Long-term projects

Source: OIG analysis of information from FRA

15
     Because it had been focusing on long-term projects, FRA had obligated only 4 of its 38 short-term projects by its
     internal obligation deadline of September 30, 2010.
                                                                                   8



FRA’s delay in obligating funds to short-term projects in turn delayed the
economic stimulus benefits that these projects were intended to yield. Short-term
project stakeholders noted that the delayed obligations significantly impacted their
scheduling of construction cycles. If construction could not begin as planned,
projects risked missing the entire construction season. Stakeholders noted that they
could not let crews begin work when originally planned due to delayed
obligations, and consequently, lost the immediate economic stimulus that they
thought ARRA funding was intended to provide.

The Focus on Long-Term Projects Also Delayed FRA’s Determination
of Requirements for Short-Term Project Agreements

FRA’s focus on long-term projects also delayed its determination of agreement
requirements for short-term projects. The Agency has not published guidance for
these grantees that details agreement requirements, and has not outlined acceptable
agreement formats specific to short-term projects.

FRA’s Guidance indicates that the stakeholder agreement requirements for
short-term projects and long-term projects are the same. However, before it
obligated the majority of short-term projects, FRA re-assessed its requirement that
all projects have agreements on service outcomes based on the challenges it
experienced with long-term project negotiations. Agency officials informed us that
they realized that because a freight railroad infrastructure owner is not always in a
position to guarantee service outcomes for an entire corridor—even for projects
that occur on segments of its own track—the railroad should not be held
accountable for these service outcomes in a written agreement. For example, FRA
initially required the stakeholders of a short-term project located within a 30-mile
stretch of corridor in Chicago to execute an agreement on service outcomes for the
corridor’s entire 30 miles. The freight railroad, however, would not agree to
ensure the project’s service benefits, particularly on-time performance, because it
believed that many factors outside its control could undermine services along the
entire corridor. FRA eventually allowed the parties to execute an alternative
agreement that addressed passenger service improvements within just the short-
term project’s section of the corridor.

FRA officials informed us that the Agency had developed policy on requirements
that short-term project grantees must meet before obligation, and due to the
diversity of HSIPR projects, those requirements vary depending upon project type,
characteristics, and complexity. However, FRA did not make the policy available
to grantees or the public. Instead, it informed each grantee individually of project
requirements, but based on information from stakeholders, the requirements were
sometimes conflicting. For instance, the Agency did not require agreements on
                                                                                  9


service outcomes to be in place at the time of obligation for projects that had
cumulative costs to the Federal Government of less than $10 million. For a project
in Vermont, however, on a route covered by an existing agreement on service
outcomes, also valued under $10 million, FRA required the stakeholders to amend
the existing agreement prior to obligation.

These conflicting requirements caused stakeholder confusion. For example,
officials from one freight company were under the impression that all projects,
regardless of size, required SOAs because FRA’s Guidance did not specify
otherwise. Those officials were frustrated by the need to dedicate resources for
agreement negotiations on every project. Officials from a different freight
company on another short-term project noted that the process that led to
acceptable agreements was not scripted or predictable, but rather like a
conversation during which compromise may be achieved. Consequently, they
found it hard to prepare adequately to meet FRA’s requirements. State grantees on
these projects expressed similar concerns over FRA’s lack of formalized process
for stakeholder agreement negotiations. One State grantee noted that it had no idea
what terms and conditions FRA expected the agreements to contain. Another
grantee echoed those concerns, and added that it could not get timely responses
from FRA to questions about how to fulfill agreement requirements to the
Agency’s satisfaction.

CONCLUSION

The Administration’s fiscal year 2013 budget allocates $47 billion over 6 years to
further develop the HSIPR program. HSIPR program investments present a unique
challenge in that they fund improvements to privately owned railroad
infrastructure—improvements that the private rail company will also own. It is
FRA’s responsibility to provide the oversight and guidance that will ensure that all
stakeholders on these projects agree on their roles and responsibilities so that
project benefits are achieved and tax dollars are protected.

RECOMMENDATIONS

To help achieve the HSIPR Program’s intended benefits, we recommend that
FRA:

1. Require that State grantees submit all required stakeholder agreements that
   address all terms specified by PRIIA and FRA’s Guidance prior to fund
   obligation.
                                                                                      10


    2. Develop guidance on stakeholder agreements for short- and long-term projects
       that addresses the differences in the projects’ scopes to ensure that the intended
       benefits of each HSIPR project can be achieved.
    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
    RESPONSE
    We provided a draft of our report to FRA on August 6, 2012, and received its
    response on October 3, 2012; the response can be found in its entirety in the
    appendix of this report. FRA concurred in part with our first recommendation. The
    Agency agrees that requirements and agreements for HSIPR projects need to be
    specific and clearly established to facilitate meaningful and objective oversight.
    However, FRA contends that it must maintain flexibility in applying a risk-based
    approach specific to each project when determining what requirements and
    agreements need to be in place prior to initiation of construction. We acknowledge
    the need for flexibility in this regard, but FRA must provide us with greater
    specificity on the risk-based approach it follows, and how that approach ensures
    that the Agency does not diminish its negotiating position when obligating project
    funds.

    FRA concurred with our second recommendation. The Agency has adjusted its
    requirements for project stakeholder agreements as a result of industry’s concerns
    that they more closely reflect differences in projects. While FRA has not finalized
    its approach in formal guidance, the Agency is committed to addressing the issue
    of further guidance if more funding becomes available for future projects.
    Therefore, given the uncertainties surrounding future funding of the HSIPR
    program, we believe that FRA’s response and planned actions demonstrate a
    commitment to address the intent of our recommendation. Accordingly, in the
    event that future funding is provided for the program, we plan on reviewing FRA’s
    actions to develop final guidance.
    ACTIONS REQUIRED
    Based on FRA’s response, we consider recommendation 1 open pending receipt of
    the additional information described above by December 31, 2012. We consider
    recommendation 2 resolved and closed.

    We appreciate the courtesies and cooperation of Federal Railroad Administration
    representatives during this audit. If you have any questions concerning this report,
    please call me at (202) 366-9970, or Yana Hudson, Program Director, at (202)
    366-2985.
                                             #
cc: Audit Liaison, OST, M-1
    Audit Liaison, FRA, RAD-43
                                                                                11



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this self-initiated, performance audit from April 2010 through
August 2012 in accordance with generally accepted Government auditing
standards. Those standards require that we plan and perform an audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence we obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To assess FRA’s development of stakeholder agreement requirements for long-
term, corridor projects, we reviewed summary data from FRA that outlined
obligation amounts and obligation dates for HSIPR projects that received ARRA
funding obligations and validated this information against FRA-approved
stakeholder agreement documents for all 23 long-term projects and public sources
that identified obligation amounts and dates for these projects. We met with FRA
officials in the Office of Passenger and Freight Programs to discuss development
of guidance and their involvement in the process to ensure that stakeholders came
to agreement on the required terms. We also discussed FRA’s focus on service
outcomes as the primary risk mitigation tool to be in place prior to obligation and
its reasoning behind decisions to obligate when additional terms were not yet
agreed upon. We interviewed State grantees to gather their perspectives on the
agreement negotiation process, including FRA’s role as facilitator in these
negotiations. We also held discussions with freight companies and Amtrak to
understand their perspectives on the agreements, the negotiation process, and the
HSIPR Program. We visited Chicago, Illinois, to meet with stakeholders and see
the Englewood Flyover project’s location. At that time, the Englewood Flyover
project was the only HSIPR project with construction underway. We also met with
Chicago’s regional transit agency—Metra—to understand that project’s impact on
Metra’s passenger service operations.

To assess the effects that FRA’s requirements’ development for long-term,
corridor projects had on short-term, ready-to-go projects, we reviewed summary
data from FRA that outlined obligation amounts and completion dates for the
short-term HSIPR projects that received ARRA funding obligations and validated
this information against available FRA-approved stakeholder agreement
documents for all 38 short-term projects and public sources that identified
obligation amounts and dates for these projects. We compared the short-term
project obligation dates against the obligation dates for long-term projects to
validate FRA officials’ claim that they focused on long-term project obligations
before short-term project obligations. We discussed the impact of this decision on
short-term projects with FRA officials in the Office of Passenger and Freight
Programs, State project grantees and freight stakeholders. We also reviewed


Exhibit A. Scope and Methodology
                                                                              12


internal FRA documents that outlined the Agency’s approach to short-term project
obligation, and reviewed that against information we received on various projects
from FRA, State grantees, and freight company stakeholders.




Exhibit A. Scope and Methodology
                                                                             13



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Federal Railroad Administration (Office of Passenger and Freight Programs), U.S.
Department of Transportation

National Passenger Railroad Corporation (Amtrak)

Illinois Department of Transportation

Washington State Department of Transportation

North Carolina Department of Transportation

Wisconsin Department of Transportation

Union Pacific Corporation

Norfolk Southern Corporation

Burlington Northern Santa Fe Railway Corporation

Metra Regional Transit Authority (Chicago, Illinois)




Exhibit B. Organizations Visited or Contacted
                                                           14



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title
Yana Hudson                             Program Director
Brendan Culley                          Project Manager
Kristen Bidwell                         Senior Analyst
Nancy Benco                             Senior Analyst
Deanne Titus                            Analyst
Olivia Starr                            Analyst
Emily Vasile                            Analyst
Susan Neill                             Writer-Editor
Andrew Schick                           Legal Intern




Exhibit C. Major Contributors to This Report
           APPENDIX. AGENCY COMMENTS                                                                          15




           U.S. Department
           of Transportation
           Federal Railroad Administration                  MEMORANDUM
           INFORMATION: FRA’s Requirements for High-Speed
Subject:                                                                           Date: October 3, 2012
           Rail Stakeholder Agreements

  From:
           Joseph Szabo
              Federal Railroad Administrator
           Mitch Behm
                                                                           Reply to the
    To:       Assistant Inspector General for Rail, Maritime, and                       ROA-03
                                                                              Attn of:
                  Economic Analysis

           In the short time since Congress enacted the American Recovery and Reinvestment Act (ARRA)
           and fiscal year 2010 Department of Transportation Appropriations Act, the Federal Railroad
           Administration (FRA) has established one of the largest discretionary infrastructure investment
           programs in U.S. history. In so doing, FRA identified worthy projects, obligated almost $10
           billion in project funding using objective data-driven processes, applied innovative and
           appropriate risk management practices, and began effective grant oversight. FRA accomplished
           these actions within unprecedented resource constraints and within tight time limitations.

           The Nation is already seeing tangible results from these investments: 27 projects (totaling
           $1.5 billion in project funding) in 14 States are under construction or complete. Additionally,
           another 19 projects (totaling $1.3 billion in project funding) in 3 additional States and the District
           of Columbia will likely begin construction before the end of December 2012. These activities
           are putting Americans back to work and reinvigorating railroad industries through constructive
           investments in U.S. infrastructure.

           HSIPR Program Employed Grant Management Best Practices

           FRA prioritized its efforts in developing and implementing the High-Speed and Intercity
           Passenger Rail Program (HSIPR) program, focusing on the highest priority, most significant
           programmatic risks first. To increase the likelihood of project success and ensure promised
           benefits to taxpayers, FRA adopted a proactive, collaborative approach to delivering critical
           performance agreements early in HSIPR implementation. FRA prioritized the elements of
           stakeholder agreements that were critical to project effectiveness prior to grant obligation, while
           setting aside lower risk aspects that could be negotiated subsequent to obligation. In doing so,
           FRA adhered to all statutory requirements and responded flexibly to the unique and sometimes
           conflicting project concerns of host railroads, Amtrak, and States. While the rail industry’s
           ownership structure is unique in the transportation sector, FRA was able to draw lessons from
           established grant management best practices, apply them with ingenuity and creativity, and
           create innovative mechanisms to safeguard project benefits.

           FRA recognized that this new grant program required a flexible approach to fulfilling statutory
           requirements. The agency took an active role in the agreement negotiating process,


           Appendix. Agency Comments
                                                                                               16


acknowledged the railroads’ core business responsibilities and unique aspects of each project,
and never wavered on the fundamental requirements for project success. FRA also recognized
the importance of responsive program management, particularly as it moved rapidly to build and
implement the program. While initial planning focused on concluding agreements for the
smaller, “short-term” projects first, subsequent information indicated a course correction would
be in the public’s best interest. For example, the railroads were particularly concerned about
their ability to comply with enforceable service agreements for smaller projects. FRA decided
that continuing to push agreements for smaller projects first would yield less robust agreements
and create a difficult precedent to overcome when negotiating the corridor agreements. FRA
concluded that service improvements from corridor-wide investments could be tracked and
managed more effectively, and thus decided to pursue those first.

With its flexible, interactive approach to program management, FRA ensured programmatic
benefits to the taxpayers, both in the short and long term. FRA gained more rigorous stakeholder
agreements by reprioritizing its activities and maximized the program’s capabilities to
demonstrate benefits from its investments. Rather than delaying project benefits, FRA’s
responsiveness to programmatic issues resulted in a program better able to identify achievable
programmatic goals, measure their achievement, and demonstrate effective outcomes.

Focus On Outcomes Led to Clear Performance Goals and Effective Measures

Within 2 years of grant selection, FRA and its partners established effective, enforceable,
performance agreements for every major project, delivering the single most important
underpinning of project success. With its focus on programmatic outcomes, FRA prioritized the
elements of stakeholder agreements that were critical to project effectiveness, prior to grant
obligation, while setting aside those aspects that represented lower risk and could be negotiated
subsequent to obligation.

FRA prioritized service outcome agreements over other types of stakeholder agreements prior to
obligation. While all stakeholder agreements need to be complete before grantees begin
construction, FRA understands that the highest risk element is delivery of promised benefits.
Concluding service outcome agreements, therefore, was the essential precursor to committing
taxpayer dollars, and FRA ensured that no grant was obligated before such agreements were in
place.

In prioritizing stakeholder agreements aimed at ensuring performance, FRA also relied heavily
on recommendations from GAO and the DOT OIG from previous studies. GAO and OIG have
repeatedly emphasized performance metrics and accountability as an essential element of grant
program success. FRA embraced this perspective as it implemented HSIPR and used it to shape
and focus our activities.




Appendix. Agency Comments
                                                                                                  17


Recommendations and Responses

OIG Recommendation 1: Require that State grantees submit all required stakeholder agreements
that address all terms specified by PRIIA and FRA’s Guidance prior to fund obligation.

FRA Response: Concur in part. FRA’s HSIPR has been designed and implemented in a manner
fully consistent with applicable statutes, including PRIIA and ARRA. FRA agrees that
requirements and agreements need to be specific and clearly established to facilitate meaningful
and objective oversight. At the same time, FRA must maintain flexibility to enable projects to
succeed. As such, FRA has been clear that all stakeholder agreements need to be complete
before grantees are authorized to enter the construction phase. FRA will continue to apply a
risk-based approach that recognizes the specifics of each project. It has the tools for this in place
and will carefully monitor their efficacy. As a result, no further action is planned on this
recommendation and we ask that it be closed.

OIG Recommendation 2: Develop guidance on stakeholder agreements for short- and long- term
projects that addresses the differences in the projects’ scopes to ensure that the intended benefits
of each HSIPR can be achieved.

FRA Response: Concur. The approach FRA used to complete the agreements offers greater
potential for project success and taxpayer benefit than would have been achieved had we adhered
to rigid guidelines, particularly early in HSIPR implementation. While FRA initially laid out
firm guidelines for stakeholder agreements, FRA adjusted the approach in response to significant
concerns from industry. If FRA receives additional funding for HSIPR projects, we will revisit
the guidance issue. Until then, no further action is planned on this recommendation and we
asked that it be closed.




Appendix. Agency Comments
